Audit Report




OIG-12-076
INFORMATION TECHNOLOGY: Treasury’s Security Management
of TNet Needs Improvement
September 27, 2012




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

Results in Brief ..............................................................................................       1

Background .................................................................................................          2

Findings and Recommendations .......................................................................                  4

        Weaknesses Existed in Physical Security Protection of TNet at AT&T’s
        Primary IDC Site ..................................................................................           4
        Recommendations.................................................................................              6

        Not All Security Controls Required by NIST SP 800-53, Revision 3, Were
        Tested and Implemented ........................................................................               8
        Recommendation ..................................................................................             9

        TNet’s Patch Management Process Was Not Fully Implemented .................                                  9
        Recommendations.................................................................................            12

        The COR and TNet PMO Did Not Adequately Monitor TNet’s Security
        Performance Measures ..........................................................................             13
        Recommendations.................................................................................            15

        POA&M Management Could Be Improved ...............................................                          16
        Recommendations.................................................................................            18

        Certain TNet Security Procedures Were Not Documented As Required .......                                    19
        Recommendation ..................................................................................           20

Appendices

    Appendix     1:       Objectives, Scope, and Methodology ....................................                   21
    Appendix     2:       Management Response .......................................................               22
    Appendix     3:       Major Contributors to This Report .........................................               26
    Appendix     4:       Report Distribution ..............................................................        27




                          Treasury’s Security Management of TNet Needs Improvement                                Page i
                          (OIG-12-076)
Abbreviations

  ATO           authority to operate
  CIO           Chief Information Officer
  COR           Contracting Officer’s Representative
  DoS           Denial of Service
  IDC           Internet Data Center
  ISSM          Information System Security Manager
  NIST SP       National Institute of Standards and Technology Special Publication
  OIG           Office of Inspector General
  OMB           Office of Management and Budget
  POA&M         Plan of Action and Milestones
  PMO           Program Management Office
  SLA           Service Level Agreement
  TNet          Treasury Network




                Treasury’s Security Management of TNet Needs Improvement      Page ii
                (OIG-12-076)
                                                                                   Audit
OIG
The Department of the Treasury
                                                                                   Report
Office of Inspector General

                      September 27, 2012


                      Robyn East
                      Deputy Assistant Secretary for Information Systems
                        and Chief Information Officer
                      Department of the Treasury

                      This report represents the results of our audit of the Department of
                      the Treasury’s (Treasury) security management of Treasury
                      Network (TNet).1 The objective of this audit was to determine
                      whether Treasury ensured that TNet security controls met federal
                      standards and guidelines.

                      To accomplish our objective, we reviewed and analyzed TNet’s
                      security-related documentation. We performed observation and
                      testing at the TNet contractor, AT&T, facilities in Oakton and
                      Ashburn, Virginia. We also interviewed Treasury and AT&T
                      personnel responsible for the security management of TNet.

                      We performed our fieldwork in the Washington, DC, metropolitan
                      area from November 2011 through June 2012. The audit was
                      conducted in accordance with generally accepted government
                      auditing standards. Our objectives, scope, and methodology are
                      described in appendix 1.

Results in Brief
                      Based on the results of our work, we concluded that Treasury’s
                      security management of TNet needs improvement. Treasury did not
                      ensure that security controls provided for TNet fully met federal
                      standards and guidelines. Specifically, we found that:



1
 TNet is a wide area network that provides Treasury with e-mail, Internet, and voice traffic
applications. The TNet task order was awarded under the General Services Administration Networx
universal contract (Contract Number GS00T07NSD0007).


                      Treasury’s Security Management of TNet Needs Improvement                Page 1
                      (OIG-12-076)
                     1. Weaknesses existed in physical security protection of TNet at
                        AT&T’s primary Internet Data Center (IDC) site.

                     2. Not all security controls required by National Institute of
                        Standards and Technology Special Publication (NIST SP) 800-
                        53, Revision 3,2 were tested and implemented.

                     3. TNet’s patch management process was not fully implemented.

                     4. The Contracting Officer’s Representative (COR) and TNet
                        Program Management Office (PMO) did not adequately monitor
                        TNet’s security performance measures.

                     5. Plan of Action and Milestone (POA&M) management could be
                        improved.

                     6. Certain TNet security procedures were not documented as
                        required.

                     We are making 14 recommendations to Treasury’s Chief
                     Information Officer (CIO) to improve the security management of
                     TNet.

                     In a written response to a draft copy of this report, the Treasury
                     CIO agreed with our findings and recommendations and provided
                     corrective action plans (see appendix 2). Treasury‘s planned
                     corrective actions are responsive to the intent of our
                     recommendations.

Background
                     TNet provides Treasury, its bureaus, and on-site contractors with
                     telecommunication services. On September 21, 2007, Treasury
                     procured TNet as a successor to the Treasury Communications
                     System through the General Service Administration’s Networx
                     Universal Contract and selected AT&T as the vendor. At that time,
                     TNet was estimated to cost $270 million. The total contract cost is

2
 NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems and
Organizations (Aug. 2009).


                     Treasury’s Security Management of TNet Needs Improvement              Page 2
                     (OIG-12-076)
                       now estimated at $449 million. Based on AT&T’s proposal,
                       implementation of TNet was to have started in October 2007.
                       However, implementation under an interim authority to operate
                       (ATO)3 did not occur until August 2009. Furthermore, because of a
                       number of security risks that needed to be remediated, TNet did
                       not receive a full ATO until March 2011, more than a year and a
                       half after the interim ATO.

                       The Internal Revenue Service Procurement Office was responsible
                       for procurement, management, and administration of the TNet task
                       order. On December 16, 2010, the Treasury Office of the CIO
                       agreed to perform management oversight of TNet. The TNet PMO,
                       which is located within the Office of the CIO, performs program
                       oversight of the TNet contractor’s operations. The TNet PMO also
                       serves as an interface between Treasury and AT&T to monitor
                       service level agreements (SLA) and manage invoices. TNet COR
                       continues to work for the Internal Revenue Service and is
                       responsible for, among other things, maintaining the complete
                       contract working files.

                       We performed our audit at the TNet contractor, AT&T, facilities in
                       Oakton and Ashburn, Virginia. AT&T’s Enterprise Management
                       Center located in Oakton, Virginia, is the primary facility that
                       provides all network support, management, and maintenance for
                       TNet. The backup facility is located in Durham, North Carolina.
                       AT&T’s IDC located in Ashburn, Virginia, is the primary facility that
                       provides Treasury internet access through a Trusted Internet
                       Connection. The backup IDC is located in Mesa, Arizona.




3
  ATO is the official management decision given by a senior organizational official to authorize operation
of an information system and to explicitly accept the risk associated with the system’s operation. ATO
can only be granted after the authorizing official has assessed the results of the certification and
accreditation (a comprehensive assessment of the management, operational, and technical security
controls for a system) package and deemed that the risk to agency operations, agency assets, or
individuals is acceptable.


                       Treasury’s Security Management of TNet Needs Improvement                     Page 3
                       (OIG-12-076)
Findings and Recommendations

Finding 1             Weaknesses Existed in Physical Security Protection of
                      TNet at AT&T’s Primary IDC Site

                      We found weaknesses in physical security protection for TNet at
                      AT&T’s primary IDC site. Specifically, we found that some non-
                      TNet AT&T personnel had physical access to TNet cages at the
                      IDC without having undergone required background investigations.
                      We also found that the IDC cages’ power supply units were not
                      locked. Finally, we found that 16 failed hard disk drives at the IDC
                      were not properly labeled or tracked prior to destruction. It should
                      be noted that after we informed Treasury officials of this matter,
                      the TNet PMO told us that AT&T subsequently provided Treasury
                      with the failed hard drives for destruction.

                      We found that AT&T technical support personnel working at the
                      IDC had physical access to TNet’s cages without having undergone
                      a Treasury background investigation. The AT&T TNet IDC Architect
                      informed us that AT&T granted physical access to these individuals
                      for emergency purposes and that all AT&T technical support
                      personnel undergo a background check as a condition of
                      employment. However, AT&T was unable to provide us with any
                      evidence that they performed a background investigation for the
                      AT&T technical support personnel we identified. The TNet PMO
                      stated that the IDC is not Treasury owned or controlled and that
                      the persons lacking demonstrable security clearances were not
                      involved in contracts that involve the design, operation, repair, or
                      maintenance of information systems.

                      The TNet contract requires that AT&T adhere to all Treasury
                      policies and procedures. Therefore, Treasury Directive Policy (TD P)
                      15-714 would apply to AT&T in this situation. This policy requires
                      that all Federal employees, contractors, subcontractors, experts,
                      consultants, and interns undergo a background investigation and
                      favorable adjudication to determine their suitability and fitness for
                      Treasury employment.

4
 TD P 15-71, “Treasury Security Manual, Chapter II section 2, Investigative Requirements for Federal
Employees, Contractors, Subcontractors, Experts, Consultants and Paid/Unpaid Interns” (July 2011).


                      Treasury’s Security Management of TNet Needs Improvement                  Page 4
                      (OIG-12-076)
                      If non-TNet AT&T technical support personnel had physical access
                      to TNet IDC cages without undergoing background investigation,
                      there was an increased risk that individuals with unvetted
                      backgrounds may have had physical access to Treasury assets
                      without Treasury’s consent. Accordingly, all personnel who need to
                      have physical access to TNet's primary IDC cages, need to undergo
                      background investigations.

                      We found that the IDC cages’ power supply units were not locked
                      even though AT&T TNet policy requires that all supporting
                      infrastructure such as power, environmental conditioning, and
                      security cages be protected.5 According to the IDC Network
                      Architect, the power supply units were left unlocked due to an
                      oversight by AT&T technical support personnel. If power supply
                      units for the IDC cages are not locked, the power could have been
                      turned off by unauthorized individuals, which could have affected
                      availability of service.

                      As mentioned above, we found a number of failed hard disk drives
                      at the IDC that were not properly labeled or tracked prior to
                      destruction. AT&T TNet policy requires that hard disk drives that
                      cannot be cleared [wiped of content] because of a failure, be
                      placed in a box marked “SENSITIVE BUT UNCLASSIFIED.” Failed
                      hard disk drives are to be released from the TNet environment only
                      after they have been physically destroyed or degaussed using
                      approved methods.6

                      The IDC Network Architect could not explain why the failed hard
                      disk drives were not properly labeled or why they were not
                      inventoried. Without an inventory of failed hard disk drives prior to
                      destruction, missing or stolen drives could go undetected, which
                      could allow for the inappropriate release of sensitive Treasury
                      information. We have since been told that these disks were
                      returned to Treasury for destruction.



5
 AT&T TNet policy, “Physical and Environmental Policy and Procedures,” Version 2.0 (Apr. 2011).
6
 AT&T TNet policy, “Treasury Network Media Protection Policy and Procedures,” Version 2.0 (Mar.
2011).


                      Treasury’s Security Management of TNet Needs Improvement               Page 5
                      (OIG-12-076)
Recommendations

We recommend that the Treasury CIO do the following:

1. Ensure that a background investigation is performed for all
   AT&T personnel who need physical access to TNet's primary
   IDC cages.

Management Response

Treasury concurred with this recommendation. Treasury will send a
contracts letter requiring AT&T to formally revoke physical access
of any AT&T employee that does not have the requisite Treasury
background investigation. It is anticipated that this planned
corrective action will be completed by December 31, 2012.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.

2. Remind AT&T to lock power supply units for TNet’s primary
   IDC cages in accordance with AT&T TNet policy for physical
   and environmental controls.

Management Response

Treasury concurred with this recommendation. Treasury will send a
contracts letter to AT&T, where the language in AT&T’s Physical
and Environmental Controls Policies and Procedures regarding
secure access to all power supply units will be reiterated. It is
anticipated that this planned corrective action will be completed by
December 31, 2012.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.




Treasury’s Security Management of TNet Needs Improvement       Page 6
(OIG-12-076)
3. Amend TNet policy and procedures to require that failed hard
   disk drives be inventoried and destroyed promptly using a
   Treasury approved method.

Management Response

Treasury concurred with this recommendation. Treasury will direct
AT&T to amend or modify its Media Protection Policy and
Procedures so that failed hard disk drives are inventoried and
destroyed using an approved method. It is anticipated that this
planned corrective action will be completed by December 31,
2012.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.

4. Ensure that failed hard disk drives at TNet’s primary IDC are
   properly labeled and inventoried for tracking purposes and
   destroyed in a timely basis using a Treasury approved method.

Management Response

Treasury concurred with this recommendation. Treasury will require
AT&T to provide quarterly hard drive destruction logs to ensure
they are being labeled, inventoried, and destroyed in accordance
with established policy. It is anticipated that this planned corrective
action will be completed by June 1, 2013.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.




Treasury’s Security Management of TNet Needs Improvement         Page 7
(OIG-12-076)
Finding 2            Not All Security Controls Required by NIST SP 800-53,
                     Revision 3, Were Tested and Implemented

                     We found that not all of the security controls required by NIST SP
                     800-53, Revision 3, dated August 2009, were tested and
                     implemented for TNet. These security controls are the
                     management, operational, and technical safeguards or
                     countermeasures intended to protect the confidentiality, integrity,
                     and availability of the system and its information.

                     The Treasury, AT&T TNet contract requires that AT&T comply
                     with all National Institute of Standards and Technology (NIST)
                     security policies as well as Treasury’s information technology
                     security policies, as these documents are modified and become
                     available. Furthermore, Federal agencies are required to comply
                     with NIST SPs within 1 year of the publication date unless
                     otherwise directed by the Office of Management and Budget
                     (OMB).7 The 1 year compliance date applies to all new and/or
                     revised NIST SPs.

                     According to the TNet PMO Director, in January 2011, a
                     management decision was made to pursue an ATO for TNet which
                     was to be based on compliance with security controls in NIST SP
                     800-53, Revision 2, dated December 2007 (under which significant
                     work had already been performed), with the understanding that the
                     security controls in NIST SP 800-53, Revision 3, dated August
                     2009, would be implemented sometime afterward. He also told us
                     that a POA&M item was added to track compliance with NIST SP
                     800-53, Revision 3. We reviewed the 2012 POA&M, dated June 7,
                     2012, and found that an entry was made directing AT&T to
                     comply with the most up-to-date NIST SP 800-53 guidance and
                     prepare a revised TNet System Security Plan (SSP). We verified
                     that the SSP was updated to incorporate the latest version of NIST
                     SP 800-53. The TNet PMO later informed us that only one-third of
                     the controls were tested.



7
 OMB Memorandum M-11-33, “FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management,” (Sept. 2011).


                     Treasury’s Security Management of TNet Needs Improvement              Page 8
                     (OIG-12-076)
            If all required security controls were not tested, TNet PMO could
            not ensure that the controls were in place and operating as
            intended. Therefore, safeguards or countermeasures intended to
            protect the confidentiality, integrity, and availability of TNet and its
            information could be ineffective.

            Recommendation

            5. We recommend that the Treasury CIO ensure that AT&T
               continue to test all NIST SP 800-53, Revision 3, security
               controls as soon as possible.

            Management Response

            Treasury concurred with this recommendation. Treasury will
            continue to test NIST SP 800-53 controls in accordance with
            Treasury policy. It is anticipated that this planned corrective action
            will be completed by June 1, 2013.

            OIG Comment

            Management’s planned corrective action is responsive to our
            recommendation.


Finding 3   TNet’s Patch Management Process Was Not Fully
            Implemented
            We found that TNet’s patch management process was not fully
            implemented. Specifically, we found that the TNet flaw remediation
            process was incomplete. We also found that some of the quarterly
            vulnerability scans were not performed for all locations.

            For the purposes of assessing the flaw remediation control, AT&T
            implemented 41 patches during calendar year 2011. According to
            the AT&T TNet Information System Security Manager (ISSM),
            TNet’s flaw remediation process for fixing vulnerabilities consisted
            of the following five steps: (1) identification, (2) analysis, (3)
            technical review board, (4) testing, and (5) deployment. AT&T
            could not provide evidence that the five-step flaw remediation
            process was followed for the 41 patches. Furthermore, for calendar

            Treasury’s Security Management of TNet Needs Improvement           Page 9
            (OIG-12-076)
year 2011, AT&T provided us evidence of some quarterly scanning
for critical devices at its IDC in Ashburn, Virginia, and in Mesa,
Arizona. Based on our review of the scan results provided from the
Ashburn and Mesa locations, we found that a vulnerability
discovered in the quarter one scan was reported again in the
quarter two scan, indicating that the vulnerability had not been
remediated in a timely manner. Additionally, we found that the
quarter four scan for the Ashburn location was not performed.

NIST SP 800-53, Revisions 3, requires the following flaw
remediation control procedures:

   The organization identifies, reports, and corrects information
    system flaws.
   The organization tests software updates related to flaw
    remediation for effectiveness before installation.
   The organization incorporates flaw remediation into the
    organizational configuration management process.

NIST SP 800-53, Revision 3, also requires the following
vulnerability scanning control procedures:

   The organization scans for vulnerabilities in the information
    system and hosted applications in accordance with the
    organization-defined frequency and/or the organization-defined
    process for random scans.
   The organization defines the response times for remediating
    legitimate vulnerabilities in accordance with an organizational
    assessment of risk.
   The organization remediates legitimate vulnerabilities in
    accordance with organization-defined response times.

NIST 800-53, Revision 3, provided up-to-date requirements for
these controls; however, the majority of the controls were already
required in Revision 2. AT&T TNet policy, “Patch and Vulnerability
Management Policy and Procedures,” Version 3.1, dated March
2011, requires that TNet Subject Matter Experts who specialize in
and support a particular technology currently deployed within TNet
do the following:




Treasury’s Security Management of TNet Needs Improvement       Page 10
(OIG-12-076)
   Monitor vendor sites for their assigned technology for security
    patches and updates.
   Determine the impact of patches on the TNet environment and
    advise the TNet Technical Review Board.
   Test security patches prior to deployment.

AT&T TNet policy required that AT&T perform vulnerability scans
on information systems and applications on a quarterly basis or
when critical or high vulnerabilities are identified and reported.
Critical vulnerabilities are required to be remediated within 72 hours
of patch availability. However, AT&T TNet policy allowed for
exceptions during system maintenance periods.

According to the AT&T TNet Information System Security Manager
(ISSM), TNet’s patch management process was not fully
implemented during calendar year 2011. He said there was also a
POA&M item related to this security weakness. He told us that
Treasury officials had been made aware of this deficiency and that
AT&T is working towards resolving the issue. Based on our review
of the 2011 TNet POA&M, we confirmed that the item was
entered into the POA&M.

AT&T was unable to explain why it did not follow the remediation
process for all of the 41 patches it pushed through. Furthermore,
AT&T was unable to tell us the why the vulnerability discovered in
the quarter one scan was not addressed prior to the quarter two
scan for the Ashburn and Mesa locations. Lastly, AT&T told us
that the quarter four scan at the Ashburn location was not run due
to technical issues.

By not fully implementing a comprehensive patch management
process, TNet PMO cannot effectively manage the risks resulting
from security vulnerabilities to TNet. If flaw remediation processes
are not followed for all patches applied, patches may be deployed
without approval and testing, which could render the system
unavailable or inoperable. Furthermore, if missing patches are not
identified and applied in a timely manner, the vulnerabilities
resulting from these missing patches could put TNet at risk of
exploitation, especially when TNet is facing the Internet. Lastly,
TNet PMO is not fully compliant with NIST SP 800-53 and TNet
policy for patch and vulnerability management.


Treasury’s Security Management of TNet Needs Improvement       Page 11
(OIG-12-076)
Recommendations

We recommend that the Treasury CIO do the following:

6. Ensure that AT&T, in accordance with TNet PMO guidance,
   implements and documents all steps in the flaw remediation
   process for TNet.

Management Response

Treasury concurred with this recommendation. Treasury will require
AT&T to provide Treasury with a flaw remediation process that has
identifiable inputs, repeatable processes, tangible outputs, and
mechanisms for communication. Treasury further stated that the
process will be compliant with government and contractual
requirements. It is anticipated that this planned corrective action
will be completed by March 1, 2013.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.

7. Ensure that quarterly vulnerability scans are performed and any
   discovered vulnerabilities are remediated within 72 hours of
   patch availability.

Management Response
Treasury concurred with this recommendation. Treasury will require
AT&T to schedule quarterly vulnerability scans and provide
evidence of completion, to include remediation of discovered
vulnerabilities within 72 hours of patch availability. It is anticipated
that this planned corrective action will be completed by December
31, 2012.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.



Treasury’s Security Management of TNet Needs Improvement         Page 12
(OIG-12-076)
Finding 4   The COR and TNet PMO Did Not Adequately Monitor
            TNet’s Security Performance Measures
            We found that the COR and TNet PMO did not adequately monitor
            AT&T’s performance against the security performance measures
            provided for in its contract with Treasury. Specifically, the COR
            and TNet PMO did not ensure that all security-related performance
            measures were met during calendar years 2010 and 2011. The
            contract provided for the following security performance measures:

               The contractor is required to ensure that 75 percent of all TNet
                security controls comply satisfactorily with stated objectives as
                required by the NIST SPs and Treasury, prior to the biannual
                compliance verification.
               The contractor is required to implement within 36 hours United
                States Computer Emergency Readiness Team recommended
                patches or implement compensating controls to protect systems
                from the vulnerability the patch is intended to address until the
                patch can be tested to be effective and does not cause
                instability.
               The contractor is required to detect 100 percent of simulated
                intrusion attacks.
               The contractor is required to detect 100 percent of simulated
                denial of service (DoS) attacks.

            However, we found that:

               AT&T did not perform the security control compliance testing in
                2010. It should be noted that AT&T did perform security
                control compliance testing in 2011, with a 90 percent
                compliance rate.
               AT&T did not implement security patches within 36 hours of
                availability. Although we asked multiple times, neither the TNet
                PMO nor AT&T could provide a report indicating how long it
                took to implement patches.
               AT&T did not test TNet’s security intrusion detection and DoS
                detection capability in 2011. It should be noted that AT&T did
                test for this in 2010 with no deficiencies identified.

            While these performance measures were provided for in the
            contract, AT&T did not always meet them, and the COR and TNet

            Treasury’s Security Management of TNet Needs Improvement       Page 13
            (OIG-12-076)
PMO did not independently monitor or evaluate AT&T’s
performance against them. As a result, the COR and TNet PMO did
not notify the contracting officer about AT&T’s failure to meet
some of the required security performance measures.

Even if the contracting officer had been notified, we found that the
TNet contract contained no penalties for not meeting the security
performance measures discussed above. Treasury had an
opportunity to incorporate penalties for not meeting these
performance measures when the contract was amended in June
2011.

The TNet PMO told us that it only began to focus more on the
security performance measures recently, seeing them as a low
priority in the past. The TNet PMO told us that the security SLA,
which are where the security performance measures discussed
above are spelled out in the contract, were established as annual
benchmarks or targets. According to the TNet PMO, only monthly
SLAs had disincentives or penalties associated with them. Since
the security SLAs had no associated disincentives, they were not
priorities for the vendor. The TNet PMO also told us that the focus
was on network stabilization, change management, and service
delivery.

If security performance measures are not met, TNet may be
vulnerable to attacks and compromises, including denial of service
and other network intrusions. Furthermore, without effective
monitoring and evaluation of the security related performance
measures, the COR and TNet PMO may not be aware of AT&T’s
failure to comply with the required security performance measures
in order to alert the CO. As a result, the CO may not be able to
make informed decisions in administering the contract in the best
interest to the government. Without penalties in the contract for
the security related performance measures, Treasury may have no
legal recourse to assess damages or apply disincentives against
AT&T for the failure to meet the security performance measures.




Treasury’s Security Management of TNet Needs Improvement      Page 14
(OIG-12-076)
Recommendations

We recommend that the Treasury CIO do the following:

8.   Ensure that security control compliance testing is performed in
     accordance with the contract.

Management Response

Treasury concurred with this recommendation. Treasury will
continue to track security control compliance testing in accordance
with contractual requirements. It is anticipated that this planned
corrective action will be completed by June 1, 2013.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.

9.   Ensure that security patches are implemented within 36 hours
     of availability in accordance with the contract.

Management Response

Treasury concurred with this recommendation. Treasury will require
AT&T to provide Treasury with a contractually compliant flaw
remediation process that has identifiable inputs, repeatable
processes, tangible outputs, and mechanisms for communication. It
is anticipated that this planned corrective action will be completed
by March 1, 2013.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.

10. Ensure that testing for intrusion detection and DoS detection
    is performed in accordance with the contract.




Treasury’s Security Management of TNet Needs Improvement      Page 15
(OIG-12-076)
            Management Response

            Treasury concurred with this recommendation. Treasury will retain
            a new Trusted Internet Connection provider that will provide
            intrusion detection and denial of service detection. It is anticipated
            that this planned corrective action will be completed by March 1,
            2013.

            OIG Comment

            Management’s planned corrective action is responsive to our
            recommendation.

            11. Ensure that TNet PMO, in coordination with the contracting
                officer and COR, review all security performance measures in
                the contract, negotiate with AT&T the terms for when
                penalties are to be applied in the event a measure is not met,
                and amend the contract accordingly.

            Management Response

            Treasury concurred with this recommendation. Treasury will
            evaluate the utility, adequacy, and enforceability of existing SLAs
            and collaborate with AT&T to define security performance
            measures and negotiate possible penalties. It is anticipated that this
            planned corrective action will be completed by June 1, 2013.

            OIG Comment

            Management’s planned corrective action is responsive to our
            recommendation.


Finding 5   POA&M Management Could Be Improved
            We found that certain security weaknesses were not always
            remediated on schedule, and that the POA&M was not always
            documented in accordance with OMB and NIST guidance. Based on
            our review of the 2011 TNet POA&M, we found that the TNet
            PMO did not ensure that 4 of 53 security weaknesses scheduled to
            be completed in 2010 were remediated on schedule. It took the


            Treasury’s Security Management of TNet Needs Improvement        Page 16
            (OIG-12-076)
                       TNet PMO 18 to 26 months longer than the scheduled completion
                       date to resolve these four security weaknesses. We also found that
                       justifications for POA&M item delays, waivers, and cancellations
                       were not always documented, and that the TNet POA&M sections,
                       such as milestone changes and source of weaknesses, were not
                       completed in accordance with OMB requirements.

                       OMB Memorandum 02-018 requires federal agencies to implement
                       a POA&M process to identify tasks that are necessary to remediate
                       identified security weaknesses. The POA&M is to include details of
                       the weaknesses, point of contact, resources required, scheduled
                       completion date, milestones with completion dates, changes to
                       milestones, source of the identification of the weakness (i.e., audit
                       report or other review), and status.

                       NIST SP 800-659 recommends, among other things, that changes
                       to the milestones section of the POA&M, document any changes to
                       timelines. It also recommends the POA&M’s source of security
                       weakness section, document where and how the weakness was
                       identified (e.g., risk assessment). Lastly, the POA&M’s comments
                       section provides space for additional detail or clarification (e.g.,
                       causes for delays or potential factor that may impact weakness
                       mitigation).

                       According to the TNet PMO Director, who was not with the TNet
                       PMO at the time when the security weaknesses were recorded in
                       the 2011 POA&M, the reason why the security weaknesses were
                       not remediated in a more timely manner was due to higher priority
                       efforts given to the transition of the wide-area-network from
                       Treasury Communication System to TNet. With regard to not
                       having justifications for POA&M item delays, waivers, and
                       cancellations, the TNet PMO Director was unable to explain why
                       these decisions were not documented in the POA&M.

                       If security weaknesses are not remediated in a timely manner, they
                       could compromise the confidentiality, integrity, or availability of

8
  OMB Memorandum 02-01, Guidance for Preparing and Submitting Security Plans of Action and
Milestones (Oct. 17, 2001).
9
  NIST SP 800-65, Version 1.0, Integrating IT Security into the Capital Planning and Investment Control
Process (Jan. 2005).


                       Treasury’s Security Management of TNet Needs Improvement                 Page 17
                       (OIG-12-076)
TNet’s systems. Also, by not completing the POA&M’s sections for
changes to milestones, source of weakness, and comments,
Treasury officials may not be able to effectively track the progress
of corrective actions.

Recommendations

We recommend that the Treasury CIO do the following:

12. Ensure that security weaknesses are remediated on schedule
    and where there are delays, waivers, or cancellations, they be
    documented in the POA&M.

Management Response

Treasury concurred with this recommendation. Treasury will work
toward remediating security weaknesses on schedule and ensure
delays, waivers, cancellations, milestone changes, and the sources
of security weaknesses are entered into Trusted Agent FISMA. It is
anticipated that this planned corrective action will be completed by
October 15, 2012.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.

13. Ensure that the POA&M sections for milestone changes,
    source of security weakness, and comments are complete.

Management Response

Treasury concurred with this recommendation. Treasury will ensure
delays, waivers, cancellations, milestone changes, and the sources
of security weaknesses are entered into Trusted Agent FISMA. It is
anticipated that this planned corrective action will be completed by
October 15, 2012.




Treasury’s Security Management of TNet Needs Improvement      Page 18
(OIG-12-076)
            OIG Comment

            Management’s planned corrective action is responsive to our
            recommendation.


Finding 6   Certain TNet Security Procedures Were Not Documented
            As Required
            We found that certain other TNet procedures need to be more fully
            documented. For example, we found that AT&T’s procedures for
            configuration management, security planning, and system and
            services acquisition were incomplete or missing information.

            NIST SP 800-53, Revision 3, requires that:

               The organization configuration management procedures
                facilitate implementation of the configuration policy and
                associated configuration management controls.
               The organization security planning procedures facilitate
                implementation of the security planning policy and associated
                security planning controls.
               The organization system services and acquisition procedures
                facilitate implementation of the system and services acquisition
                policy and associated system services and acquisition controls.

            NIST 800-53, Revision 3, contains up-to-date requirements for
            these procedures; however, these procedures were already required
            in Revision 2.

            According to the AT&T TNet ISSM, all policy statements will not
            have corresponding procedures. He said that there are times when
            the policy statement is considered to be sufficiently explanatory.
            When this is the case, AT&T does not document step-by-step
            procedures. While we acknowledge the AT&T TNet ISSM’s
            rationale, we believe that configuration management, security
            planning, and system and services acquisition need documented
            procedures in order to facilitate consistent conformance to
            technical requirements and practices. Also, as a result of the
            documentation issues noted above, AT&T TNet procedures are in
            non-compliance with NIST SP 800-53, Revision 3, requirements.

            Treasury’s Security Management of TNet Needs Improvement      Page 19
            (OIG-12-076)
Procedures that contain incomplete or missing information increase
the risk of inconsistent practices among AT&T personnel.

Recommendation

14. We recommend that the Treasury CIO ensure that AT&T’s
    procedures for configuration management, security planning,
    and system and services acquisition are fully documented.

Management Response

Treasury concurred with this recommendation. Treasury will require
AT&T to map each requirement to a corresponding procedure in
the policy documents referenced. It is anticipated that this planned
corrective action will be completed by March 1, 2013.

OIG Comment

Management’s planned corrective action is responsive to our
recommendation.

                                ******

I would like to extend my appreciation to the Office of the CIO and
the TNet PMO for the cooperation and courtesies extended to my
staff during the audit. If you have any questions, please contact
me at (202) 927-5171 or Farbod Fakhrai, Information Technology
Audit Manager, at (202) 927-5841. Major contributors to this
report are listed in appendix 3.



/s/


Tram Jacquelyn Dang
Director of Information Technology Audits




Treasury’s Security Management of TNet Needs Improvement      Page 20
(OIG-12-076)
Appendix 1
Objectives, Scope, and Methodology




The report represents the results of our audit of the Department of
the Treasury’s security management of Treasury Network (TNet).
The objective of this audit was to determine whether Treasury
ensured that TNet security controls met federal standards and
guidelines. This audit was included in the Office of Inspector
General Annual Plan for 2012.

To accomplish our objective, we reviewed and analyzed TNet’s
security related documentation including policies and procedures.
We performed observation and testing at the TNet contractor,
AT&T, facilities in Oakton and Ashburn, Virginia. We also
interviewed Treasury and AT&T personnel responsible for the
security management of TNet. We utilized National Institute of
Standards and Technology guidelines to assess TNet’s
management, operational, and technical controls. We performed
our fieldwork in the Washington, DC, metropolitan area from
November 2011 through June 2012. The results of this audit may
be used to support our work undertaken in accordance with the
requirements of the Federal Information Security Management Act.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Treasury’s Security Management of TNet Needs Improvement      Page 21
(OIG-12-076)
Appendix 2
Management Response




Treasury’s Security Management of TNet Needs Improvement   Page 22
(OIG-12-076)
Appendix 2
Management Response




Treasury’s Security Management of TNet Needs Improvement   Page 23
(OIG-12-076)
Appendix 2
Management Response




Treasury’s Security Management of TNet Needs Improvement   Page 24
(OIG-12-076)
Appendix 2
Management Response




Treasury’s Security Management of TNet Needs Improvement   Page 25
(OIG-12-076)
Appendix 3
Major Contributors to This Report




Office of Information Technology (IT) Audits

  Tram J. Dang, Audit Director
  Farbod Fakhrai, IT Audit Manager
  Abdirahman Salah, Former IT Audit Manager
  Robert Kohn, Auditor-in-Charge
  Kevin Mfume, IT Specialist
  Don’te Kelley, IT Specialist
  Mitul Patel, IT Specialist
  Jason Beckwith, IT Specialist
  Jason Madden, Referencer




Treasury’s Security Management of TNet Needs Improvement   Page 26
(OIG-12-076)
Appendix 4
Report Distribution




Department of the Treasury

   Office of the Chief Information Officer
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of Management and Budget

   Office of Inspector General Budget Examiner




Treasury’s Security Management of TNet Needs Improvement      Page 27
(OIG-12-076)
